December 13, 2001
Audit Report No. 01-025


Audit of the Least Cost Test Model




           1
Federal Deposit Insurance Corporation                                                                    Office of Audits
Washington, D.C. 20434                                                                              Office of Inspector
General




   DATE:              December 13, 2001


   TO:                Mitchell L. Glassman, Director
                      Division of Resolutions and Receiverships

                      Carol M. Heindel, Acting Director
                      Division of Information Resources Management and
                      Acting Chief Information Officer


   FROM:              Russell A. Rau [Electronically produced version; original signed by
                      Russell A. Rau]
                      Assistant Inspector General for Audits


   SUBJECT:           Report Entitled Audit of the Least Cost Test Model
                      (Audit Report Number 01-025)


   The Office of Inspector General (OIG) completed an audit of the information systems
   application used by the Division of Resolutions and Receiverships (DRR) to comply with
   the least cost provisions 1 of the FDIC Improvement Act of 1991 (FDICIA). This
   application includes the Least Cost Test; the optimization software package, What’s
   Best !; and, the Insurance Determination Cost Calculation model. Collectively, these
   systems will be described as the Least Cost Test model (LCT model). The objectives of
   the audit were to determine whether the LCT model (1) operated as designed and
   (2) contained adequate controls to ensure complete and accurate results. Additional
   details on the audit scope and methodology are included in Appendix I.


   BACKGROUND

   DRR’s mission is to plan for and resolve failing FDIC-insured institutions promptly,
   efficiently, and responsively in order to maintain public confidence in the national
   financial system. Within DRR, the Franchise and Asset Marketing Branch is responsible


   1
     These provisions require the FDIC to resolve failing institutions in a manner that is the least costly to the
   deposit insurance funds of all possible resolution methods.


                                                            1
for resolving troubled financial institutions and selling assets at the least cost and highest
recovery to the Corporation's insurance funds. The FDIC has various means to resolve a
failing financial institution. Under FDICIA, the FDIC may exercise specified resolution
authorities only where the chosen method is the least costly to the deposit insurance funds
of all possible methods for meeting the Corporation’s obligations. In addition, the FDIC
has a strategic goal to ensure that institutions are resolved in the least costly manner in
accordance with law. Therefore, the branch continues to develop, refine, and implement
resolution policies, procedures, and strategies that minimize losses to the insurance funds.

In order to comply with the least cost provisions of FDICIA, DRR developed the LCT
model, which tracks the FDIC’s costs of liquidation and then compares these costs to
other resolution options. Since 1991, the FDIC has been required to select the least
costly resolution option and has refined its process over time. As currently structured, the
LCT model contains three parts: the Least Cost Test, What’s Best!, and the Insurance
Determination Cost Calculation. The Least Cost Test is a series of Microsoft® 2 Excel-
based spreadsheets that accumulates information on the failing institution and then
compares the costs of various resolution options and documents the rationale for
choosing one option as the least cost resolution.




2
  Microsoft is a registered trademark or trademark of Microsoft Corporation in the United States and/or other
countries.


                                                      2
The three parts of the model interface like this:

                               LEAST COST TEST MODEL

                                                                              Insurance Determination
                                                                              Cost Calculation
     DRR Dallas
     prepares                                                                 Calculates additional
     value                                                                    costs associated with
                                                      Least Cost Test         each type of transaction
     estimates of
                                                      Accumulates,
     assets and
                                                      compares, and
     liabilities
                                                      documents info
                                                      on resolution
                                                      decision

                                                     Asset
       Bids for
                                                     info          Bid
        whole
                                                                   analysis
        banks




        Bids for
         asset                                      What’s Best! Analysis
         pools
                                                    Determines best bid
                                                    combination from bids
                                                    received


         Bids for
         deposits




                                               3
What’s Best! is a commercial, off-the-shelf software program that evaluates multiple
solutions and selects the optimal solution within the parameters established by the user.
DRR began using the What’s Best! optimization software in 1998 to evaluate the bids
received for failing institutions. Previously, program staff manually reviewed and
evaluated bids on failing institutions. Among the parameters established in What’s Best!
for evaluating the bids received for a failing institution are the prices established by DRR
through the Asset Valuation Review (AVR). The AVR is prepared by the Franchise and
Asset Marketing Branch of DRR in Dallas. The primary purpose of an AVR is to
establish an estimate of the value of the institution’s assets to the FDIC as receiver of the
failing institution. The estimated value of a pool of loans offered for sale is used as the
minimum price the FDIC is willing to accept from potential purchasers of failing
institutions. What’s Best!, as customized by DRR, selects from among the multiple bid
combinations submitted for a failing institution’s deposits and asset pools. Information
on the winning bid combinations is transferred to the LCT model for comparison with the
FDIC’s cost of liquidating the institution. Information on a bid for a whole bank
transaction is entered directly into the Least Cost Test.

The Insurance Determination Cost Calculation is a DRR-developed spreadsheet that
estimates the additional costs of resolving the failing institution’s liabilities in three basic
resolution types. Such additional costs include travel costs for staff assigned to the
closing, as well as overhead expenses associated with the resolution process. These costs
are added to the FDIC’s estimated loss under each resolution scenario for final selection
of the least costly transaction. The Insurance Determination Cost Calculation was added
to the LCT model in 1999.

The Least Cost Test templates, the What’s Best! templates, and the Insurance
Determination Cost Calculation template are all stored on DRR’s shared drive for
resolutions in a Least Cost Test template folder. At the beginning of the resolution
process, copies of each template are made from this folder and then stored in a new folder
specific to the failing institution on DRR’s shared drive. When our audit fieldwork
began, DRR had five Washington staff who entered information into the LCT model;
however, reorganization during the audit doubled the size of the Washington staff who
enter information into the LCT model.

Office of Management and Budget (OMB) Circular No. A-130, Management of Federal
Information Resources, Appendix III 3 , defines an application as the use of information
resources (information and information technology) to satisfy a specific set of user
requirements. It further defines adequate security as security commensurate with the risk
and magnitude of the harm resulting from the loss, misuse, or unauthorized access to or

3
  On October 22, 2001 the FDIC Legal Division issued an opinion that stated that OMB Circular A-130,
Appendix III, partly applied to the FDIC. Among the parts of Appendix III that applied to FDIC was the
requirement that FDIC implement and maintain a program to assure adequate security for all agency
information collected, processed, transmitted, stored, or disseminated in general support systems and major
applications. The FDIC Legal Division further opined that such programs are to be consistent with
government-wide policies, standards, and procedures issued by the Office of Management and Budget, the
Department of Commerce, the General Services Administration, and the Office of Personnel Management.


                                                       4
modification of information. This includes assuring that systems and applications used by
the agency operate effectively and provide appropriate confidentiality, integrity, and
availability, through the use of cost-effective management, personnel, operational, and
technical controls.


RESULTS OF AUDIT

The LCT model correctly determined the lowest cost resolution in both cases we
reviewed. Therefore, we concluded the model is generally operating as intended.
However, security controls for the LCT model needed improvement. Specifically,
controls over access, software development, and changes were weak. For example:

•   Access privileges were not always appropriately limited, including authority to
    modify the LCT model. Therefore, system changes could be executed without proper
    testing and approval.

•   Software testing to demonstrate functionality was not documented. Therefore, the
    extent of testing and correction of test deficiencies was uncertain.

•   Complete system software documentation has not been maintained. Therefore,
    software maintenance modification and recovery are impaired and may not be fully
    effective.

The FDIC has not designated the LCT model as a major application nor is it subject to
the more rigorous security requirements associated with that designation despite the
critical role it plays in the DRR resolution process. The model ensures that DRR
complies with the statutory least cost provisions, processes highly sensitive information
such as bids for the assets of failed institutions, and provides the basis for key FDIC
decisions on resolving failed institutions. The Division of Information Resources
Management (DIRM) has developed a new process for evaluating the sensitivity of FDIC
systems that should be applied to the LCT model to determine if an upgrade in status is
warranted.


LEAST COST TEST MODEL OPERATED AS DESIGNED

We judgmentally selected two resolution cases and reviewed the application of the LCT
model in each case. We determined that in both cases the LCT model operated as designed.
In each case, DRR selected the resolution option that was least costly to the insurance fund.
In one case, only one bid was received, so the provisions of the What’s Best! module did not
apply. However, in the other case, the What’s Best! module selected the best bid submitted.
We noted discrepancies in both the Least Cost Test reports and the Insurance Determination
Cost Calculation, but they did not affect the Least Cost Test decision.




                                              5
Peoples National Bank of Commerce

The first resolution case we reviewed was Peoples National Bank of Commerce
(Peoples), Miami, Florida, which was closed on September 10, 1999. The Franchise and
Asset Marketing Branch generated balance sheet data for the AVR as of June 17, 1999.
Information from the AVR was transferred correctly into the Least Cost Test. Because
only one bid was received, there was no need to implement the What’s Best! module of
the LCT model. DRR just compared the bid to the cost of liquidation to determine which
would be the least costly transaction. The OIG reviewed this comparison and determined
that, by accepting the bid, DRR selected the least costly transaction.

Finally, the OIG reviewed the Insurance Determination Cost Calculation. DRR did not
have any documented policies and procedures for the Insurance Determination Cost
Calculation. We determined that outdated information on travel costs and benefits was
used in the calculation. However, because the information was used consistently
throughout the calculation, there was no effect on the results of the LCT model.
Although current information would have decreased the estimated total loss to the FDIC,
the single bid received was still less costly than the FDIC’s cost of liquidation.

First Alliance Bank and Trust Company

The second resolution case we reviewed was First Alliance Bank and Trust Company
(First Alliance), Manchester, New Hampshire, which was closed on February 2, 2001.
The Franchise and Asset Marketing Branch generated balance sheet data for the AVR as
of October 31, 2000. Information from the AVR was transferred correctly into the Least
Cost Test. DRR received 21 bids from 5 different bidders for First Alliance. The OIG
reviewed the What’s Best! analysis and determined that DRR selected the least costly
transaction. We noted user input errors and omissions in the LCT model documents,
including the Insurance Determination Cost Calculation, but these did not affect the Least
Cost Test decision process. DRR procedures required that the resolution case documents
be reviewed by a Qualified Reviewer, a DRR employee designated to ensure that
information is accurate and complete. Neither the preparer nor the Qualified Reviewer
noted these errors during the resolution process.

In both the Peoples and First Alliance resolution cases, the errors noted on the LCT model
documents did not invalidate the decision made by DRR as to which was the least costly
resolution. However, these errors did point out the necessity to strengthen the review
process. After we brought this weakness to the attention of branch management, they
immediately developed a draft checklist to be used by the Qualified Reviewers to focus and
document their reviews of the resolution cases. DRR also developed a user checklist as an
added control to strengthen the review process and to assist the new members of the staff
with completing the LCT model documents.




                                             6
Recommendations

We recommend that the Assistant Director, Franchise and Asset Marketing, DRR:

(1)      Formalize and implement the use of the Qualified Reviewer’s checklist as planned
         and establish other controls to ensure that the documents generated by the LCT
         model to support the resolution decision are accurate and complete.
(2)      Establish a process for periodically updating the underlying estimates in the
         Insurance Determination Cost Calculation to ensure decisions are based on the most
         current information available.


LCT MODEL CONTROLS NEED IMPROVEMENT

We reviewed both access controls and application software development and change
controls 4 for the LCT model to determine whether adequate controls were in place. We
determined that access to the model is not limited to those with a business need and that
some personnel with access to the model had access beyond that needed to perform their
jobs. Although their duties could be accomplished with read-only access to the LCT model,
some DRR personnel had read, write, and change access to the LCT model. We noted
several problems with the application software development and change controls.
Specifically, DRR did not involve DIRM in the purchasing decision for What’s Best! and,
consequently, the software was not tested for compatibility with the FDIC’s operating
environment. There is also no record that the software was tested to ensure that it would
operate effectively in complex resolution transactions. Additionally, there is little
documentation of the development of the LCT model templates to use as a starting point
when making future modifications. DRR also has not developed a system for requesting,
making, testing, and approving changes to the LCT model templates. Finally, there is little
security over the macros and formulas5 included in the spreadsheets to prevent accidental or
intentional changes. The users can change the macros and formulas included in the LCT
model spreadsheets by directly overwriting the ones not protected. The system also allows
users to make changes to the protected macros and formulas included in the LCT model
spreadsheets by first removing the protection function and then editing those macros and
formulas as desired. As a result, adequate security6 is not necessarily achieved for the LCT
model.



4
  Access controls limit or detect access to computer resources, thereby protecting these resources against
unauthorized modification, loss, and disclosure. Application software development and change controls
prevent unauthorized programs or unauthorized modifications to existing programs from being implemented.
5
  A macro is a set of commands and keystroke instructions combined by a user to perform a specific task. This
differs from a formula, which performs a specific mathematical function.
6
  According to OMB Circular A-130, Appendix III, “adequate security means security commensurate with
the risk and magnitude of the harm resulting from the loss, misuse, or unauthorized access to or
modification of information. This includes assuring that systems and applications used by the agency
operate effectively and provide appropriate confidentiality, integrity, and availability, through the use of
cost-effective management, personnel, operational, and technical controls.”


                                                      7
Access Controls

We obtained a list of employees with access to the LCT model. We reviewed their job
responsibilities to determine whether access to the LCT model templates on DRR’s shared
drive was limited to appropriate personnel. Both the National Institute of Standards and
Technology (NIST) standards and DIRM guidance recommended that access to systems be
limited to those with a business need to protect the systems from unauthorized modification
or misuse. The applicable sections of the NIST standards and DIRM guidance are included
in Appendix II. Eighteen DRR employees have read, write, and change (RWX) access to
the shared drive Least Cost Test template folder. Ten of these are DRR employees directly
responsible for Least Cost Test activities, while the other eight are DRR employees who
have access to the LCT model but no direct responsibility for Least Cost Test activities. In
addition, a DRR contractor has access to the Least Cost Test template folder but not the
entire shared drive. Our analysis of access to the LCT model templates is as follows:

•   All eight users who are responsible for input into the LCT model have appropriate
    access.
•   One of the four DRR managers with RWX access to the LCT model should have
    read-only access, commensurate with his responsibilities for analysis.
•   Three Qualified Reviewers have RWX access to the LCT model templates. Only one
    of the Qualified Reviewers needs this level of access; the other two should have read-
    only access to the failing institution folder.
•   Two support staff employees have RWX access to the LCT model, but their duties
    should require them to have read-only access to information specific to the failing
    institution and no access to the LCT model templates.
•   The one field office employee who assists with modification to the Least Cost Test
    templates has an appropriate level of access on the shared drive.

We discussed our access concerns with the Assistant Director, Franchise and Asset
Marketing, DRR and he agreed with our conclusions. Additionally, he has since taken
action to limit the level of access as discussed above. DRR provided us with
documentation from DIRM that access changes had been made.

Application Software Development and Change Controls

As noted previously, application software development and change controls prevent
unauthorized programs or unauthorized modifications to existing programs from being
implemented. These types of controls are normally included in a security plan. The LCT
model is not a major application of the FDIC and is not required to have a security plan,
although OMB Circular A-130, Appendix III, still requires the agency to ensure that security
commensurate with risk is in place. During our review of documents and interviews with
responsible program officials, we noted several types of problems in this area. They are as
follows:

•   When DRR purchased the What’s Best! software in 1998, it did not involve DIRM in the
    process. Therefore, DIRM did not have the opportunity to test the software for


                                             8
    compatibility with the FDIC’s operating environment. There was also no
    documentation that DRR had stress tested the program to determine if it would continue
    to operate effectively in complex resolution situations. Without knowledge of the
    purchase or access to the software, DIRM was unable to test the software’s
    compatibility with the Corporation’s operating environment until November 2000 and
    found compatibility problems that required DIRM to rescript the software. However, the
    rescripted program did not perform as DRR needed, which led to ongoing discussions
    between DIRM and DRR to resolve these rescripting problems. In the meantime, DRR
    decided to plan for an upgrade of its version of What’s Best!, because the current version
    is not compatible with FDIC’s planned upgrade of its computing operating environment.
    To complete the upgrade, DRR would purchase the upgraded version of What’s Best!
    and develop new spreadsheets to use with the upgraded version. DRR has already
    purchased an upgraded copy of the What’s Best! software and submitted it to DIRM for
    testing. This testing and implementation of the new version of What’s Best! has to be
    completed before FDIC rolls out its upgrade of the computing operating environment,
    which is planned to be completed by the end of the first quarter of 2002.

•   During the implementation of the original What’s Best! software, Division of Research
    and Statistics (DRS) employees, with assistance from DRR program officials, developed
    spreadsheet templates used to document the What’s Best! analysis. As part of the design
    process to facilitate a user-friendly system, DRS color-coded the cells to indicate into
    which cells bid information is entered, which cells are program-related, and which cells
    are used to evaluate data. The FDIC no longer employs the DRS employees responsible
    for designing the spreadsheet, and no one has documentation on how the spreadsheet
    was created in case modifications are needed during the upgrade of the What’s Best!
    software.

•   Neither DRR employees nor the DRR contractor primarily responsible for the Least
    Cost Test templates retains documentation of changes made to the Least Cost Test
    templates. There is no system for documenting the reason for the changes or the testing
    and approval of the changes. One DRR employee and the contractor know the password
    protecting the Least Cost Test template on DRR’s shared drive, and the contractor
    changes the template at the direction of the DRR employee. Instructions are normally
    given by e-mail, but once the changes are made, neither the contractor nor the DRR
    employee retain any documentation about the changes made or the testing and approval
    of the changes.

•   Using a copy of What’s Best! provided to the OIG by DRR, we were able to edit the
    macros developed for transferring data between the Least Cost Test spreadsheets and the
    What’s Best! spreadsheets even when the spreadsheets themselves were protected as part
    of the formatting. For example, we edited the macro transferring information about the
    asset pools offered for sale so that the wrong asset pool information was transferred to
    the What’s Best! spreadsheets. Since What’s Best! decides which is the best bid
    combination by comparing the bid price on a pool to the FDIC’s AVR reserve price,
    transferring incorrect information on the asset pool would directly affect the What’s
    Best! decision process. The macros tested within the LCT model appeared to be


                                              9
      operating as intended, although the controls over the macros could be strengthened.
      DRR management indicated that the contractor has already added password protection
      to the macros.

•     When testing the Insurance Determination Cost Calculation, we discovered that some of
      the formulas within the template had been overwritten during a resolution in June 2000.
      These formulas automatically calculated staffing needs based on deposit base estimates
      developed during the Y2K process. Normally, users are directed to enter only institution
      identification and deposit account information; therefore, users in subsequent cases
      might not realize that the underlying formulas had been changed and would then be
      relying on results based on faulty assumptions. DRR promptly acted when the OIG
      brought this matter to its attention. The Insurance Determination Cost Calculation is
      being revised and will be added to the shared drive as a read-only file.

Recommendations

We recommend that the Assistant Director, Franchise and Asset Marketing, DRR:

(3)      Periodically review access to the shared drive and the LCT model templates to
         ensure that employees have appropriate levels of access to the files.
(4)      Develop and retain documentation to support the testing performed on the
         upgraded What’s Best! software for compatibility with the FDIC’s operating
         environment and performance in complex resolution solutions.
(5)      Fully document the preparation of new spreadsheets or the modification of
         existing spreadsheets used in the operation of the upgraded What’s Best! program.
(6)      Establish procedures for requesting, making, tracking, testing, and approving
         changes to the LCT model.
(7)      Ensure that the protection added to the LCT model macros is operating correctly.
(8)      Incorporate steps in the resolution case review process to ensure that formulas are
         operating as intended and have not been overwritten.


DRR AND DIRM SHOULD REEVALUATE THE SENSITIVITY OF THE LCT
MODEL

The LCT model was not designated as a major application within the FDIC and afforded the
increased security that these systems receive. According to OMB Circular A-130, Appendix
III, a major application is “an application that requires special attention to security due to the
risk and magnitude of the harm resulting from the loss, misuse, or unauthorized access to or
modification of the information in the application.” Appendix III of this report outlines the
security requirements related to major applications. Although the LCT model was
considered a mission critical system for Y2K, it was not designated a major application as
part of the February 1999 Corporation Security Controls Program. The information
analyzed and generated by the system provides the basis for the Corporation to meet its
strategic goal to ensure that institutions are resolved in the least costly manner. Further, the
Corporation is required by law to select the least costly resolution option, and the LCT



                                               10
model has been established to provide a consistent methodology to support that requirement.
Therefore, DRR and DIRM should reevaluate the LCT model for possible reclassification as
a major application within the FDIC.

In February 1999, DIRM, using a Sensitivity Assessment Questionnaire (SAQ), evaluated
the LCT model as part of the Corporate Security Controls Program. The SAQ was used in
identifying major applications subject to enhanced security controls. At that time, based on
information provided by DRR and the methodology used by DIRM to identify major
applications, DIRM did not identify the LCT model as a major application of the FDIC.
The rating scale used with the 1999 SAQ questionnaire evaluated the whole areas of system
confidentiality, data integrity, and application availability. However, in June 2001, DIRM
published a draft version of a revised SAQ that allowed the program users to evaluate the
individual elements of each area. In addition, in response to OIG recommendations in
another audit, the new SAQ provides more comprehensive information on how applications
are classified under the guidelines and provides expanded criteria against which applications
can be measured.

As noted previously, DRR is not currently required to have a security plan for the LCT
model, because it is not designated as a major application. OMB Circular A-130,
Appendix III, requires federal agencies to implement policies, standards, and procedures
which are consistent with government-wide policies, standards, and procedures issued by
OMB, the Department of Commerce, the General Services Administration, and the Office of
Personnel Management. In 1996, NIST, part of the Department of Commerce, published a
compilation of generally accepted principles and practices for securing information
technology systems. This guidance recognized that planning at the system level would
ensure appropriate and cost-effective security for each system. One area to be considered in
the planning was a system-specific security plan. According to the NIST standards, the
security plan should document the rules for development and operation of the system.
According to NIST, a fully documented security plan addresses access controls and
application software development and change controls to ensure that appropriate security
controls are specified, designed into, tested, and accepted in the application.

Recommendations

We recommend that the Assistant Director, Franchise and Asset Marketing, DRR and the
Assistant Director, Information Security Staff, DIRM:

(9)    Apply DIRM's revised SAQ procedures to the LCT model and determine if a
       reclassification of the LCT model is warranted. The results should be forwarded
       immediately to the Office of Inspector General and the Office of Internal Control
       Management for follow-up.

(10)   Develop a security plan for the LCT model as described in OMB Circular A-130,
       Appendix III and the guidance developed by NIST for generally accepted principles
       and practices for securing information technology systems.




                                             11
CORPORATION COMMENTS AND OIG EVALUATION

On October 23, 2001, the Director of DRR and the Acting Director of DIRM provided a
written response to the draft report. The response is presented in Appendix IV to this report.

The Corporation generally concurred with recommendations 1 through 8. These
recommendations will remain undispositioned and open for reporting purposes. With
respect to recommendations 9 and 10, which are also undispositioned and open, we have
requested that the Corporation notify us of the results of its application of the revised
Sensitivity Assessment Questionnaire and any subsequent changes to the security plan for
the LCT model.

While the responses generally agreed with the OIG’s recommendations, both DRR and
DIRM noted that the LCT model is not currently a major application of the FDIC and
therefore is not subject to the security plan provisions of OMB Circular A-130,
Appendix III. The final report was modified to address their wording concerns with the
draft report and to clarify the OIG’s intent to recommend that security controls,
commensurate with the risks associated with the LCT model, be implemented.




                                             12
                                                                              APPENDIX I
                            SCOPE AND METHODOLOGY

We selected two resolution cases for our review of the LCT model and the work
performed by the DRR Washington staff. Each of the cases we reviewed represented the
most current version of the LCT model at the time of the failure. We did not review the
AVR process conducted by the DRR Dallas staff because a separate audit is in process.

We reviewed the resolution case files associated with the failures of Peoples National
Bank of Commerce (Peoples), Miami, Florida, and First Alliance Bank and Trust
Company (First Alliance), Manchester, New Hampshire. We judgmentally selected these
institutions from the universe of 20 failures since 1997. As mentioned in the Background
section of this report, DRR refined the resolution process over time by adding What’s
Best! and the Insurance Determination Cost Calculation and revising the spreadsheets
included in the LCT model. We selected Peoples because this was the first resolution
case that incorporated the Insurance Determination Cost Calculation component into the
LCT model.

We selected First Alliance because it was the most recent resolution case completed
during our review. By reviewing this most recent resolution case, we ensured that our
review included DRR’s most current LCT model and resolution process. Additionally,
because DRR offered a variety of resolution options for First Alliance, the variety of bids
received encompassed most types of resolutions available for offer by DRR.

In order to determine if the LCT model operated as designed, we

•   obtained and reviewed DRR’s draft Least Cost Test manual and draft Resolutions
    Policy manual as well as the Least Cost Test instruction sheets for established
    procedures and guidance,
•   compared the information in the AVR report to the data manually entered into the
    balance sheet of the Least Cost Test and verified the accuracy of the data,
•   compared the information from the original bid documents to the data manually
    entered into the What’s Best! spreadsheets and verified the accuracy of the data,
•   compared the information on the best bid combinations selected by the What’s Best!
    analysis to the data electronically transferred to the Least Cost Test and verified the
    accuracy of the data,
•   compared the information on the original bid to the data manually entered into the
    Least Cost Test and verified the accuracy of the data if no What’s Best! bid analysis
    was performed during the resolution process,
•   recalculated the Least Cost Test comparison sheets to verify the mathematical
    accuracy of the worksheets, and
•   confirmed that the least costly resolution was selected by DRR.




                                             13
In addition, to ensure that the What’s Best! component operated as designed, we
• reviewed the sample case used by DRR in its training process,
• manually combined the bids received in the insured-only deposits case and the all-
    deposits case7 and priced out each bid, and
• verified that What’s Best! had selected the best bid combination for both the insured-
    only deposits case and the all-deposits case.

•   For the Insurance Determination Cost Calculation, we
•   determined whether the electronic transfer of information on staffing estimates was
    completed correctly,
•   verified the average costs used in the calculation, and
•   recalculated the cost of each type of insurance determination and verified the
    accuracy of the information used during the specific resolution process.

In order to evaluate the controls established by DRR for the LCT model, we
                                               8
• reviewed the system application controls associated with the LCT model;
• obtained and reviewed Office of Management and Budget (OMB) Circular A-130,
    Management of Federal Information Resources, Appendix III, Security of Federal
    Automated Information Resources;
• obtained and reviewed National Institute of Standards and Technology (NIST) Special
    Publication 800-14, Generally Accepted Principles and Practices for Securing
    Information Technology Systems;
• obtained and reviewed Division of Information Resources Management (DIRM)
    directives, policies, and guidance regarding development, access, and security of FDIC
    systems for applicability to our audit;
• obtained, reviewed, and applied DIRM’s draft guidance for SAQs to the LCT model to
    determine whether the LCT model could be designated a major application under the
    draft guidance;
• obtained a list of FDIC employees with access to the LCT model and reviewed it for
    appropriateness to job responsibilities; and
• tested the macros and formulas incorporated into the LCT model for security and edit
    controls.

Also, we interviewed personnel from DRR Dallas, DRR headquarters, DIRM, and DRS.
We performed our work at the FDIC’s offices in Washington, D.C. We conducted the
audit from September 2000 through June 2001 in accordance with generally accepted
government auditing standards.




7
  DRR may give potential bidders the option to acquire all deposit liabilities of a failing institution or just the
insured deposit liabilities.
8
  Application controls are incorporated directly into individual applications and are intended to ensure
completeness, accuracy, authorization, and validity of all transactions during application processing.


                                                         14
                                                                               APPENDIX II


   THE NATIONAL INSTITUTE OF STANDARDS AND TECHNOLOGY (NIST)
     STANDARDS AND THE DIVISION OF INFORMATION RESOURCES
                  MANAGEMENT (DIRM) GUIDANCE

Section 3.5.1 of Special Publication 800-14, Generally Accepted Principles and Practices for
Securing Information Technology Systems issued by NIST states:

       Least privilege refers to the security objective of granting users only those accesses
       they need to perform their official duties.

DIRM guidance is contained in two FDIC Circulars, 1360.1 and 1360.15.
Section 6.c of FDIC Circular 1360.1 states:

       Access to sensitive information and information systems will be based on business
       needs.

Section 4.b of FDIC Circular 1360.15 states:

       Sensitive AISs [Automated Information Systems] and data shall be protected from
       unauthorized access, disclosure, and use. Access to sensitive systems shall be
       permitted only for business purposes, as approved by a supervisor and program
       manager, or their designee(s). Such access shall be terminated when it is no longer
       required or when access privileges have not been used for a predetermined period of
       time.




                                               15
                                                                             APPENDIX III

         OMB CIRCULAR A-130, APPENDIX III, SECURITY REQUIREMENTS
                   FOR A MAJOR SYSTEM APPLICATION

1) Assign Responsibility for Security
Assign responsibility for security of each major application to a management official
knowledgeable in the nature of the information and process supported by the application
and in the management, personnel, operational, and technical controls used to protect it.
This official shall assure that effective security products and techniques are appropriately
used in the application and shall be contacted when a security incident occurs concerning
the application.

2) Application Security Plan
Plan for the adequate security of each major application, taking into account the security
of all systems in which the application will operate. The plan shall be consistent with
guidance issued by NIST. Advice and comment on the plan shall be solicited from the
official responsible for security in the primary system in which the application will
operate prior to the plan's implementation. A summary of the security plans shall be
incorporated into the strategic information resources management plan required by the
Paperwork Reduction Act. Application security plans shall include:
    a) Application Rules -- Establish a set of rules concerning use of and behavior within
    the application. The rules shall be as stringent as necessary to provide adequate
    security for the application and the information in it. Such rules shall clearly delineate
    responsibilities and expected behavior of all individuals with access to the
    application. In addition, the rules shall be clear about the consequences of behavior
    not consistent with the rules.
    b) Specialized Training -- Before allowing individuals access to the application,
    ensure that all individuals receive specialized training focused on their responsibilities
    and the application rules.
    c) Personnel Security -- Incorporate controls such as separation of duties, least
    privilege and individual accountability into the application and application rules as
    appropriate.
    d) Contingency Planning -- Establish and periodically test the capability to perform
    the agency function supported by the application in the event of failure of its
    automated support.
    e) Technical Controls -- Ensure that appropriate security controls are specified,
    designed into, tested, and accepted in the application in accordance with appropriate
    guidance issued by NIST.

3) Review of Application Controls
Perform an independent review or audit of the security controls in each application at
least every three years. Consider identifying a deficiency pursuant to OMB Circular No.
A-123, Management Accountability and Control and the Federal Managers' Financial




                                             16
Integrity Act if there is no assignment of responsibility for security, no security plan, or
no authorization to process for the application.

4) Authorize Processing
Ensure that a management official authorizes in writing use of the application by
confirming that its security plan as implemented adequately secures the application.
Results of the most recent review or audit of controls shall be a factor in management
authorizations. The application must be authorized prior to operating and re-authorized at
least every three years thereafter. Management authorization implies accepting the risk of
each system used by the application.




                                              17
                                                                                    APPENDIX IV
FDIC
Federal Deposit Insurance Corporation
Division of Resolutions and Receiverships                  Division of Information Resources Management


                                                                      October 23, 2001

MEMORANDUM TO:                        Sharon M. Smith
                                      Deputy Assistant Inspector General for Audits

FROM:                                 Mitchell L. Glassman, Director [Electronically produced
                                      version; original signed by Mitchell L. Glassman]
                                      Division of Resolutions and Receiverships

                                      Carol M. Heindel, Acting Director [Electronically produced
                                      version; original signed by Wayne C. Gooding]
                                      Division of Information Resources Management and
                                      Acting Chief Information Officer

SUBJECT:                              Response to OIG Draft Report Entitled Audit of
                                      the Least Cost Test Model (Audit Number 00-724)

This memorandum will serve to respond to the issues and recommendations outlined in
the draft OIG Audit Report, dated September 25, 2001.

General Comments:

On page 6, bullet three under Results of Audit, and on page 12, first paragraph under
Application Software Development and Change Controls, the draft report incorrectly
leads the reader to believe that an application security plan is required for the Least Cost
Test Model (LCT). As the report correctly notes on pages 16 and 17, the LCT had been
through the Sensitivity Assessment Questionnaire (SAQ) in 1999 and was determined not
to be a major application. As such, there is no requirement for a security plan to be
developed. The identified language on pages 6 and 12 should be revised to clearly
indicate that this is not an issue of non-compliance by the FDIC and to be consistent with
the language of pages 16 and 17.

The draft report indicates in the first full paragraph of page 17 that, “An appropriately
developed security plan would require the Corporation to address our current control
concerns.” Based upon our review, the control issues identified by this report can be
addressed in a timely, cost-effective manner by the actions specified in this management
decision, without the need for development of a security plan.

(1)      OIG Recommendation:
         Formalize and implement the use of the Qualified Reviewer’s checklist as
         planned and establish other controls to ensure that the documents generated by the


                                                   18
      LCT model to support the resolution decision are accurate and complete.

      DRR Response:
      The Qualified Reviewer checklist has been formalized, implemented and used. It
      is a template located on our shared drive in the LCT folder and is password
      protected. It is also a part of our Least Cost Test Manual. The LCT checklist has
      been created for both the specialist who is completing the LCT and the qualified
      reviewer to aid them in correctly completing/reviewing all of the necessary
      documents. A memo to the Resolutions staff outlining the new procedures was
      sent on October 4, 2001.

(2)   OIG Recommendation:
      Establish a process for periodically updating the underlying estimates in the
      Insurance Determination Cost Calculation to ensure decisions are based on the
      most current information available.

      DRR Response:
      A process was established pursuant to the OIG recommendation. The Insurance
      Determination Cost Calculation Model and data will be reviewed during the first
      quarter of each year. New data will be gathered, and the programmer will update
      the defaults and other information in the model. Any changes will be reported to
      the Least Cost Test Policy Board. The LCT Manual was changed on October 16,
      2001, to reflect the new procedures.

(3)   OIG Recommendation:
      Periodically review access to the shared drive and the LCT model templates to
      ensure that employees have appropriate levels of access to the files.

      DRR Response:
      A process was established on October 16, 2001, pursuant to the OIG
      recommendation. The Assistant Director, Franchise and Asset Marketing, DRR,
      will check with DRR Information Security in the first quarter of each year to
      confirm who has access to the LCT and determine if those people are the
      appropriate ones to have such access. Access can be altered, deleted or added at
      that time.

(4)   OIG Recommendation:
      Develop and retain documentation to support the testing performed on the
      upgraded “What’s Best!” software for compatibility with the FDIC’s operating
      environment and performance in complex resolution solutions.

      DRR and DIRM Response:
      One copy of “What’s Best!” 5.0 (commercial version) was purchased and tested
      on June 26, 2001, by DIRM for compatibility with our operating system. DIRM
      rescripted the software to ensure compatibility, and the revised software was
      tested by DIRM and DRR. DIRM has retained the documentation of their testing



                                          19
      and rescripting. “What’s Best!” 5.0 (commercial version) was “stress tested” by
      DRR to determine if the software would perform in a complex resolution
      scenario. “What’s Best” passed the stress test, and DRR has retained
      documentation of the test. DIRM is now buying additional copies of the
      commercial version and upgrades of the professional version for DRR personnel
      who use the LCT model. Once the professional version is received, it will also be
      stress tested.

(5)   OIG Recommendation:
      Fully document the preparation of new spreadsheets or the modification of
      existing spreadsheets used in the operation of the upgraded “What’s Best!”
      program.

      DRR Response:
      The spreadsheets that were created for “What’s Best!” version 3.1 were used to
      stress test version 5.0. The software worked correctly with the original
      spreadsheets, and DRR has retained the corresponding documentation. (See
      response to # 4.) If, at some point, the spreadsheets need to be changed or new
      spreadsheets need to be created for use with “What’s Best!” version 5.0, the
      preparation, modification and testing will be fully documented, and the
      documentation will be retained by DRR. These procedures are included in the
      LCT Manual.

(6)   OIG Recommendation:
      Establish procedures for requesting, making, tracking, testing, and approving
      changes to the LCT model.

      DRR Response:
      All changes are requested by e-mail from the LCT point of contact to the
      programmer and his supervisor. The programmer must obtain the password from
      the point of contact and then proceeds to make any changes. The point of contact
      tracks the change process and tests the changes for approval. After the changes
      are approved, the point of contact changes the password. The point of contact
      uses a spreadsheet to document the changes. These procedures are included in the
      LCT Manual.

(7)   OIG Recommendation:
      Ensure that the protection added to the LCT model macros is operating correctly.

      DRR Response:
      Password protection has been added to the LCT model macros. The LCT point of
      contact has the password and gives it to the programmer when a requested change
      to the model involves changing the macros. Once the change is complete, the
      password is changed by the LCT point of contact. The LCT point of contact
      periodically checks the password protection for the LCT macros. Documentation
      of the changes and testing will be maintained by the LCT point of contact.



                                          20
(8)    OIG Recommendation:
       Incorporate steps in the resolution case review process to ensure that formulas are
       operating as intended and have not been overwritten.

       DRR Response:
       The Insurance Determination Model has been revised and is now a password-
       protected template. A step has been added to the Qualified Reviewer checklist to
       determine if the Insurance Determination Model has been correctly completed and
       to verify that the template has not been overwritten. These procedures are
       included in the LCT Manual.

(9)    OIG Recommendation:
       Apply DIRM’s revised SAQ procedures to the LCT model and determine if a
       reclassification of the LCT model is warranted. The results should be forwarded
       immediately to the Office of Inspector General and the Office of Internal Control
       Management for follow-up.

       DRR and DIRM Response:
       Utilizing the Corporation’s revised SAQ procedures, the LCT model will be
       evaluated by January 31, 2002. The results will be reviewed by the Least Cost
       Test Policy Board.

(10)   OIG Recommendation:
       Develop a security plan for the LCT model as described in OMB Circular A-130
       and the guidance developed by NIST for generally accepted principles and
       practices for securing information technology systems.

       DRR and DIRM Response:
       The referenced OMB Circular A-130 requirement refers to a major system
       application. The LCT model was reviewed in 1999 and was determined not to be
       a major system application. If it is determined that the LCT model is a major
       system application, a security plan as described in Circular A-130 will be
       developed.

cc:    Vijay Deshpande, Director, OICM
       James Wigand, Deputy Director, DRR
       Giovanni Recchia, Associate Director, DRR
       Herbert Held, Assistant Director, DRR
       Susan Whited, Assistant Director, DRR
       Dean Eisenberg, Senior Internal Review Specialist, DRR
       Wendy Hoskins, Resolutions and Receiverships Specialist, DRR
       Janet Roberson, Deputy Director, DIRM
       Wayne Gooding, Deputy Director, DIRM
       Rack Campbell, Chief ITES Section, DIRM
       James Lewis, Senior Computer Specialist, DIRM



                                           21
Kenneth Jones, Section Chief, OICM
Penelope Moreland-Gunn, Manager Information Systems, DRR
Susan Seigman, Information Security Specialist, DRR




                               22
